                            SOCIAL SECURITY
                            Office of the Inspector General

                                  September 30, 2010

The Honorable Earl Pomeroy
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Chairman Pomeroy:

In an August 4, 2009 letter, former Chairman Tanner requested that we (1) examine
conferences held during the past 5 years where Social Security Administration (SSA)
funds were used or Agency staff was present; (2) determine how much was used for
such training as a percent of the Agency’s overall administrative expenses, as well as
the role of off-site training conferences within these training funds; (3) discuss the
decision-making process behind the off-site training and steps to ensure service
delivery is not affected when employees are at these conferences; and (4) provide
information regarding planned conferences through Fiscal Year 2010. This report
addresses Questions 2 and 3 regarding training costs, the decision-making process,
and steps to ensure uninterrupted service delivery. We addressed Questions 1 and 4 in
our May 2010 report, Off-site Training Conferences (A-05-10-21035).

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to SSA. I have also sent a similar response to
Sam Johnson, Ranking Member, Subcommittee on Social Security, and John Linder,
Ranking Member, Subcommittee on Income Security and Family Support.

If you have any questions, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General
Enclosure

cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                  September 30, 2010


The Honorable Sam Johnson
Ranking Member, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an August 4, 2009 letter, you requested that we (1) examine conferences held during
the past 5 years where Social Security Administration (SSA) funds were used or Agency
staff was present; (2) determine how much was used for such training as a percent of
the Agency’s overall administrative expenses, as well as the role of off-site training
conferences within these training funds; (3) discuss the decision-making process behind
the off-site training and steps to ensure service delivery is not affected when employees
are at these conferences; and (4) provide information regarding planned conferences
through Fiscal Year 2010. This report addresses Questions 2 and 3 regarding training
costs, the decision-making process and steps to ensure uninterrupted service delivery.
We addressed Questions 1 and 4 in our May 2010 report, Off-site Training Conferences
(A-05-10-21035).

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to SSA. I have also sent a similar response to
Earl Pomeroy, Chairman, Subcommittee on Social Security, and John Linder, Ranking
Member, Subcommittee on Income Security and Family Support.

If you have any questions, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General
Enclosure
cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General

                                  September 30, 2010

The Honorable John Linder
Ranking Member, Subcommittee on
 Income Security and Family Support
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Linder:

In an August 4, 2009 letter, you requested that we (1) examine conferences held during
the past 5 years where Social Security Administration (SSA) funds were used or Agency
staff was present; (2) determine how much was used for such training as a percent of
the Agency’s overall administrative expenses, as well as the role of off-site training
conferences within these training funds; (3) discuss the decision-making process behind
the off-site training and steps to ensure service delivery is not affected when employees
are at these conferences; and (4) provide information regarding planned conferences
through Fiscal Year 2010. This report addresses Questions 2 and 3 regarding training
costs, the decision-making process and steps to ensure uninterrupted service delivery.
We addressed Questions 1 and 4 in our May 2010 report, Off-site Training Conferences
(A-05-10-21035).

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to SSA. I have also sent similar responses to
Earl Pomeroy, Chairman, Subcommittee on Social Security, and Sam Johnson,
Ranking Member, Subcommittee on Social Security.

If you have any questions, please call me or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General
Enclosure
cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Training Expenditures at the Social
      Security Administration

           A-05-10-10118




           September 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                 Executive Summary
OBJECTIVE
Our objectives were to (1) determine the portion of the Social Security Administration’s
(SSA) administrative expenses dedicated to training as well as the role of off-site
training conferences within these training funds; and (2) define the Agency’s decision-
making process related to off-site training as well as steps taken to ensure service
delivery is not affected when employees are at these conferences.

BACKGROUND
Given the size and complexity of the programs the Agency administers, SSA has
established overall goals for management succession and continual learning that are
then translated through various organizational layers to employee work units. The
Agency uses various financial systems to track the costs related to employee training.
Some training costs are easily attributed to individual components and the activities
being measured, such as tuition fees, instructor contracts, and employee travel costs
associated with attendance at off-site conferences. Other costs relate to activities that
must first be measured so the costs can be properly allocated, such as employee time
spent in training so salary and benefit costs can be determined.

RESULTS OF REVIEW
Although SSA’s cost systems were not set up to specifically track and accumulate
training costs in one report or management information system, we reviewed the
available financial data and estimated the Agency spent approximately $409 million on
training-related activities in Fiscal Year (FY) 2009, representing about 3.8 percent of
SSA’s $10.7 billion administrative budget. This amount does not include training costs
incurred by the State disability determination services, which we estimated could be
another $64 million. SSA incurred approximately $9.7 million in off-site conference
costs in FY 2009, or about 2.4 percent of the estimated $409 million spent by the
Agency on training in FY 2009 (and less than 0.1 percent of the Agency’s administrative
budget). Beginning in FY 2010, off-site conferences became subject to centralized
oversight to ensure such training closely adhered to the Agency’s training procurement
policies.




Training Expenditures at the Social Security Administration (A-05-10-10118)                 i
Our review of the budget allocation priorities in SSA’s Office of Operations
demonstrated that Headquarters specifically allocated funds to the regions for technical
training, whereas the regions schedule more varied training based on available funds
and the organization’s needs. We reviewed the Chicago Region’s budget allocation
process to learn more about the regional process and the training of new employees.
The Region used a variety of training approaches to develop its staff and managers,
though off-site conferences were not used in FY 2009 because the Region had
sufficient space in its own facilities to host small events. We also found the Region and
Agency lacked a comprehensive training database that could provide detailed training
information for each regional employee. According to the Agency, it is developing a
Learning Management System that will provide this information upon implementation.

Finally, while we did not find a specific Agency policy regarding service delivery while
employees are attending off-site training, the Agency’s guidelines require that the official
who approves training ensure the release of an employee to attend training is
compatible with workload demands. Field office managers took a variety of steps to
ensure service delivery was not affected when employees attended training, whether
the training was provided internally or off-site.

CONCLUSIONS
Off-site training was a small part of SSA’s training expenditures in FY 2009. While
managers have flexibility in meeting their training needs, the Agency has set up new
controls to oversee off-site training activities. Agency managers are expected to ensure
training does not affect service delivery and have used a variety of methods to balance
training and workloads. The variety of training delivery systems at the Agency provides
managers with greater opportunities to adjust the timing and nature of this training.




Training Expenditures at the Social Security Administration (A-05-10-10118)               ii
                                                                         Table of Contents
                                                                                                                     Page

BACKGROUND ...................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

SSA Training Costs ................................................................................................. 4

    •    Salaries and Benefits.................................................................................... 5
    •    Tuition, Contracts, and Related Travel ......................................................... 6
    •    IVT Costs ...................................................................................................... 7
    •    OL Costs ...................................................................................................... 8
    •    Telephone and Computer Support ............................................................... 8
    •    Off-Site Conference Costs ............................................................................ 9
    •    DDS Costs .................................................................................................. 10

Training Allocation and Oversight ......................................................................... 11

    •    Budget Allocation Process .......................................................................... 11
    •    Chicago Region Training Costs .................................................................. 12

Service Delivery .................................................................................................... 16

CONCLUSIONS .................................................................................................... 18

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Training Goals at the Social Security Administration
APPENDIX C – Scope and Methodology
APPENDIX D – Tuition, Contracts, and Related Travel Costs
APPENDIX E – Training Approval Policy
APPENDIX F – Central Oversight of Off-Site Conferences
APPENDIX G – Chicago Region Training Matrix
APPENDIX H – Statistics on Agency Training
APPENDIX I – Related Office of the Inspector General Reports




Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                            Background
OBJECTIVE
Our objectives were to (1) determine the portion of the Social Security Administration’s
(SSA) administrative expenses dedicated to training as well as the role of off-site
training conferences within these training funds; and (2) define the Agency’s decision-
making process related to off-site training as well as steps taken to ensure service
delivery is not affected when employees are at these conferences.

BACKGROUND
An August 4, 2009 letter from then Chairman of the Social Security Subcommittee and
Representatives Johnson and Linder requested that the Office of the Inspector General
(OIG) review the appropriateness of SSA’s off-site training conferences. Specifically,
we were asked to (1) examine conferences held during the past 5 years where SSA
funds were used or Agency staff was present; (2) determine how much was used for
such training as a percent of the Agency’s overall administrative expenses as well as
the role of off-site training conferences within these training funds; (3) discuss the
decision-making process behind the off-site training and steps to ensure service
delivery is not affected when employees are at these conferences; and (4) provide
information regarding planned conferences through Fiscal Year (FY) 2010.

This report responds to Questions 2 and 3, providing information on funds used for
training, the decision-making process behind off-site training, and steps the Agency has
taken to ensure service delivery is not affected when employees attend conferences.
We issued a report in May 2010 to respond to Questions 1 and 4. 1

AGENCY GROWTH

SSA’s mission is to deliver Social Security services that meet the changing needs of the
public. In FY 2009, SSA was provided appropriations totaling approximately
$10.7 billion, which consisted of its annual appropriation and funds under the American
Recovery and Reinvestment Act of 2009 (ARRA). Among other things, ARRA provided
SSA $500 million to process increasing retirement and disability workloads2 due to both




1
    SSA OIG, Off-site Training Conferences (A-05-10-21035), May 2010.
2
 Pub. L. No. 111-5, Division A, Title VIII, 123 Stat. 115, 185-186. Of the $500 million mentioned above,
$40 million may be used for health information technology research and activities to facilitate the adoption
of electronic medical records in disability claims. Id.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                1
the economic downturn and the baby boom retirement wave. 3 SSA used these funds,
in part, to hire additional individuals in the Offices of Operations (Operations) and
Disability Adjudication and review (ODAR), as well as State disability determination
services (DDS). Figure 1 illustrates the growth in hiring at SSA since FY 2005, with
FY 2009 representing the period of greatest hiring. At the end of FY 2009, the Agency
had approximately 65,000 employees nationwide, with another 16,800 State DDS
employees also providing support for the Agency’s programs. 4

                                          Figure 1: New Hires at SSA and DDSs
                                                    (FYs 2005 to 2009)

                             9,000

                             8,000

                             7,000
       Number of New HIres




                             6,000

                             5,000

                             4,000                                                         New Agency Hires

                             3,000                                                         New DDS Hires

                             2,000

                             1,000

                                -
                                     FY 2005   FY 2006    FY 2007      FY 2008   FY 2009

                                                         Fiscal Year

TRAINING GOALS AND GUIDANCE

Given the size and complexity of the programs the Agency administers, SSA has
established overall goals for management succession and continual learning, which are
then translated through the various organizational layers to the employee work units.
We outline these goals in Appendix B.

SSA’s Administrative Instructions Manual System (AIMS) requires that Agency training
be designed to ensure the optimum use of human resources in achieving organizational
goals and approved employee development plans by the most cost-effective and

3
 See SSA OIG, The Office of Operations' Staffing Plans Under the American Recovery and
Reinvestment Act of 2009 (A-09-09-29157), November 2009; The Office of Disability Adjudication and
Review’s Staffing Plans Under the American Recovery and Reinvestment Act (A-12-09-29140),
December 2009; and Disability Determination Services' Staffing Under the American Recovery and
Reinvestment Act (A-07-09-29156), December 2009.
4
 SSA, Fiscal Year 2009 Performance and Accountability Report, Management Discussion and Analysis,
page 10.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                   2
professional means available. 5 Moreover, this training must conform to appropriate
laws, regulations and the terms of negotiated agreements.6

Federal agencies are allowed to use a variety of methods to train employees, including
classroom, on-the-job, technology-based, satellite, self-development, coaching,
mentoring, career development counseling, details, rotations, cross-training, and
developmental activities at retreats and conferences. 7

TRAINING COSTS

The Agency uses various financial systems to track the costs related to employee
training. Some training costs are more easily attributed to individual components and
the activities being measured, such as tuition fees, and instructor contracts, and
employee travel costs associated with attendance at off-site conferences. These costs
are captured and maintained in the Social Security Online Accounting and Reporting
System (SSOARS). 8 Other costs relate to activities that must first be measured so the
costs can be properly allocated, which applies to the salaries and benefits of SSA
employees attending training. While these costs are also captured in SSOARS, they
are then allocated to the appropriate activities in the Agency’s Cost Analysis System
(CAS). 9

SCOPE AND METHODOLOGY
To meet our objectives, we compiled, analyzed, and relied on Agency-provided training
cost data for FY 2009 (October 1, 2008 through September 30, 2009). We also
interviewed staff from the relevant Headquarters components and the Chicago regional
office to obtain information on the budget and decision-making processes, as well as
employee training activities. See Appendix C for our full scope and methodology.




5
  SSA, AIMS, Training Manual (TM), § 01.01.04.A—Development and Management of Training Policy
and Training Course Evaluation. AIMS is the official medium for issuing SSA’s policies, standards, and
instructions on administrative subjects. AIMS provides a single integrated, comprehensive approach to
issuing policies and procedures covering all administrative subjects, other than personnel matters.
6
    Id.

7
    Office of Personnel Management, Planning and Evaluation Training, 5 C.F.R. § 410.203 (2010).
8
 In October 2003, SSOARS was implemented as SSA’s system-of-record for the Agency's financial
accounting function.
9
 Most of the workload volume and functional workyear data are obtained from SSA’s work measurement
systems. For cost analysis purposes, work measurement systems specifically provide the basis for
apportioning personnel time among functions (for example, work sampling) and therefore are the basis for
distributing payroll costs. We are conducting several separate audits of SSA’s cost accounting system,
which will go into greater detail.


Training Expenditures at the Social Security Administration (A-05-10-10118)                              3
                                                       Results of Review
Although SSA’s cost systems were not set up to specifically track and accumulate
training costs in one report or management information system, we reviewed the
available financial data and estimated the Agency spent approximately $409 million on
training-related activities in FY 2009, representing about 3.8 percent of SSA’s
$10.7 billion administrative budget. This amount does not include training costs
incurred by the State DDS, which we estimated could be another $64 million. SSA
incurred approximately $9.7 million in off-site conference costs in FY 2009, or about
2.4 percent of the estimated $409 million spent by the Agency on training in FY 2009
(and less than 0.1 percent of the Agency’s administrative budget). Beginning in
FY 2010, off-site conferences became subject to centralized oversight to ensure such
training closely adhered to the Agency’s training procurement policies. We found that
SSA regional offices, which incurred the majority of the training expenses, had a degree
of autonomy when planning for employee training needs, which may include off-site
conferences. Finally, we found that, in the absence of a formal or written policy, field
office managers took a variety of steps to ensure service delivery was not affected when
employees attended training, whether the training was provided internally or off-site.

                      Figure 2: FY 2009 Expenditure Comparisons




SSA TRAINING COSTS
SSA’s FY 2009 budget provided approximately $10.7 billion for administrative costs. 10
Based on the data we obtained for this review, total identifiable training costs of
$409 million comprised about 3.8 percent of SSA’s administrative budget in FY 2009.

10
  This includes all SSA components, including the OIG. It also includes ARRA funds. SSA has a
program budget and an administrative budget. The program budget covers benefit payments to
individuals, while the administrative budget covers the costs of accomplishing SSA’s mission.


Training Expenditures at the Social Security Administration (A-05-10-10118)                     4
We found that off-site conference costs made up about 2.4 percent of the approximately
$409 million in FY 2009 identifiable training costs. Total reported off-site conference
costs were about 0.1 percent of the Agency’s total administrative budget. If we add our
estimate of DDS-related training costs, Agency training costs would increase to $473.6
million, representing about 4.4 percent of SSA’s administrative budget in FY 2009.

As shown in Table 1, we identified four areas, representing the approximately
$409 million in FY 2009 training costs, as well as a fifth area related to DDS salaries
and benefits associated with time spent in training. Agency managers stated that SSA’s
systems are set up to track workload-related costs, such as efforts related to processing
Old-Age, Survivors and Disability Insurance and Supplemental Security Income
workloads. As a result, while the training costs could be located in various systems and
component budgets, the Agency was not specifically tracking and accumulating these
training costs in one report or management information system. Moreover, State DDSs
are not required to provide detailed breakouts associated with training costs.

                    Table 1: Estimated Training-Related Costs for FY 2009

                            Source                           Reported Costs              Percent
        Agency Salaries and Benefits      1                       $336.7 million           82.3%
        Course or Conference Specific: 2
         - Training-Related Travel                                 $28.4 million             7.0%
         - Class Tuition & Training Materials                      $15.0 million             3.7%
         - Training Contracts3                                      $6.3 million             1.5%
        IVT Equipment                                              $17.9 million             4.4%
        Telephone and Computer Support                              $4.9 million             1.2%
        Subtotal                                                 $409.2 million             100%4
        DDS Salaries and Benefits                                                    $64.4 million
        Total                                                                      $473.6 million
      Note 1: Since SSA’s systems are not set up to track all non-workload-related costs, a
      number of Headquarters components are not included in these costs.
      Note 2: These costs were reported in SSOARS by the various Agency components and
      represented travel costs, course tuition, training materials, and training contracts. These
      costs include open obligations and disbursements for activity incurred in FYs 2009 and later.
      Actual disbursements totaled about $41.3 million.
      Note 3: These costs include food and entertainment expenses.
      Note 4: Does not add to 100 percent because of rounding.

SALARIES AND BENEFITS

About 82 percent of the identifiable training costs were related to salaries and benefits.
These salaries and benefits were associated with the time employees spent attending
training 11 as well as time spent by employees providing instruction or training services,
such as Office of Learning (OL) staff. CAS recorded approximately $336.7 million on

11
     This includes on-the-job training time.


Training Expenditures at the Social Security Administration (A-05-10-10118)                           5
FY 2009 training-related costs.12 Of the $336.7 million, $320.5 million (95 percent)
represented training costs related to instruction for both new and existing staff attending
training from components handling workloads. 13 As shown in Figure 3, the majority of
these salary and benefit expenditures related to regional and field offices (70 percent)14
and program service centers (15 percent).

                           Figure 3: Allocation of $320.5 Million in Training Costs

                                        Regional/Field Offices
      Components




                                      Program Service Centers

                                Office of Disability Operations

                   Office of Disability Adjudication and Review

                                                         Other


                                                                  0   50       100        150       200   250

                                                                            Dollars (in Millions)

                                                  New Hire Training    Ongoing Training

The remaining $16.2 million (5 percent) in training costs represented costs associated
with support functions of the Office of the Deputy Commissioner for Human Resources,
including the salaries and benefits of OL staff.

TUITION, CONTRACTS, AND RELATED TRAVEL

We identified approximately $49.7 million in costs related to course tuition, training-
related contracts, and travel associated with training classes and conferences (see
Figure 4). About $28 million (57 percent) of the training costs was related to travel
associated with informational meetings, conferences, and training. Most of these costs
were obtained directly from SSOARS based on sub-object classifications (SOC) that

12
   While we determined that FY 2009 costs related to ongoing training remained constant, new staff
training costs are approximately 127 percent greater than in FY 2007. This is consistent with the
increased hiring of the last 2 years.
13
  The SSA CAS C1 – 1235 report provides category workyears, payroll obligations, and payroll costs per
workyear for workload and staff functions by program activity for SSA and its components. A workload is
defined as a major classification denoting that the basic character or work being performed is directly
engaged in performing one or more of the program missions of the Agency. Since SSA’s systems were
not set up to track all non-workload-related costs, eight Headquarters components are not included in the
CAS calculations: Offices of Actuary; Budget, Finance and Management; Chief Information Officer;
Commissioner; Communications; General Counsel; Inspector General; and Legislation and
Congressional Affairs.

14
  According to the time allocation studies conducted at the regional and field offices, between 6.2 and
8.2 percent of employee time is charged to training-related activities.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                     6
appeared to be related to training activities. The remaining amounts related to the cost
of classes and materials under the Government Employees Training Act (GETA)15
(30 percent) as well as the costs of contracts for instructors and training-related
activities (13 percent). This contract amount also includes about $633,000 in
“Entertainment Expenses” related to award ceremonies, food, and receptions. 16 Of the
$49.7 million in tuition, contracts, and related travel costs, almost $41.3 million has been
disbursed, and the remainder is considered open obligations.

               Figure 4: Reported Tuition, Contracts, and Related Travel
                                  Costs for FY 2009

                   13%
                                                                     Travel (57%)

                                                                     Class Tuition and Training
       30%                                         57%               Materials (30%)
                                                                     Training Contracts (13%)



IVT COSTS

The Agency also uses the Interactive Video Teletraining (IVT) network for training. SSA
produces live broadcasts from an in-house studio, and employees view those
broadcasts on television monitors in field offices. This technology enabled limited real-
time communication between the instructor and students. In addition, sessions are
recorded and employees may view rebroadcasts via the Agency’s “Video on Demand”
program. SSA has noted that IVT is a cost-efficient method of delivering training to
audiences in multiple locations, although there are other delivery choices for specific
training. The Agency reported IVT costs of about $17.9 million for FY 2009, primarily
related to equipment, studio, and maintenance costs.




15
   5 U.S.C. §§ 4101 et seq. (2007). GETA provides that the head of an agency may pay all or part of the
pay of an employee of the agency for the period of training, and may pay or reimburse the employee for
all or part of the necessary expenses of training. GETA provides that the necessary expenses of training
include the necessary costs of travel and per diem, among other things. Id. at § 4109(a).
16
   Food and reception costs are often offset when the employees attending a training event do not claim
reimbursement for the meals on their travel vouchers.


Training Expenditures at the Social Security Administration (A-05-10-10118)                               7
OL COSTS

OHR reported about $23.2 million in OL costs for FY 2009, mostly related to salaries,
IVT studio operations, leadership training, career development, and vendor training. 17
OL is responsible for ensuring that SSA’s workforce possesses the knowledge, skills,
and abilities to support the Agency’s mission. The courses provided by OL include the
following:

     •   entry-level programmatic training, 18
     •   professional development,
     •   career enrichment workshop seminars,
     •   leadership development for new and experienced supervisors, and
     •   online training.

TELEPHONE AND COMPUTER SUPPORT

SSA also allocated approximately $3.2 million in telephone and computer support to
training-related activities. As this support cannot easily be charged directly to each
component, the costs of this support are funded from the Centralized Common Expense
Account (CCEA), an Agency-level overhead account. The CCEA pools various central
office and other expenses from many organizations that share the use of central office
buildings, equipment, supplies, and/or services and benefit from certain Agency-wide
expenditures.

Another $1.7 million in allocated costs was related to Information Technology Systems
(ITS). ITS is an SSA overhead account that pools various automated data processing
and transmission expenses (including voice and telecommunications) of many
organizations that share SSA’s information and transmission, equipment, supplies,
and/or services.




17
  We did not specifically identify these costs in Table 1 since about $10.5 million was already included
under “Salaries and Benefits” costs, and the remaining $12.7 million was covered under the “Course or
Conference Specific” costs.
18
  In addition to the Claims and Service Representative entry-level training courses provided by OL in
partnership with regional studios, SSA develops and delivers training for benefit authorizers, claims
authorizers, technical support technicians, teleservice representatives, DDS examiners, administrative
law judges, decision writers, legal assistants and fundamental training for all new Headquarters
employees. The OL maintains, prints, and delivers the course material for this training.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                8
OFF-SITE CONFERENCE COSTS

SSA also conducts off-site conferences to train and inform its employees. SSA defines
a conference as a meeting, retreat, seminar, symposium, forum, training activity, or
event that involves attendee travel or an internal training activity. 19 We did not identify
this as a separate category in Table 1 since the off-site training conference costs, such
as travel and speaker costs, as well as employee salaries and benefits, were already
included in the prior cost categories.

As discussed in our May 2010 Congressional Response Report: Off-Site Training
Conferences, SSA conducted 168 off-site conferences between October 2004 and
November 2009 for about 26,000 attendees at a cost of approximately $23.5 million.
Based on data we obtained from the Agency, we determined that total reported off-site
conference costs of approximately $9.7 million related to FY 2009 (see Table 2). 20 As a
result, off-site conference costs made up about 2.4 percent of the approximately
$409 million in FY 2009 identifiable training costs. Compared to the Agency’s
administrative budget, total reported off-site conference costs were about 0.1 percent of
SSA’s total budget.

                      Table 2: FY 2009 Reported Off-Site Conference
                               Training Costs by Component

                                                                                  Estimated
                                                              Reported           Salaries and
                        Component                              Costs               Benefits
       Office of Communications                                   $386,373              $230,541
       Office of Disability Adjudication and Review               $845,539            $1,314,310
       Office of Disability Determinations                         $92,833              $716,423
       Office of General Counsel                                  $180,361              $348,981
       Office of Human Resources                                $1,640,912              $732,344
       Office of Retirement and Disability Policy                 $735,377              $339,229
       Office of Operations                                       $973,090            $1,203,224
                                              Totals            $4,854,485            $4,885,052
      Source: SSA OIG analysis of data obtained for our May 2010 Congressional Response
      Report: Off-Site Training Conferences. The criteria we used to calculate estimated salaries
      and benefits are described in Appendix E of our May 2010 report and are not identical to
      SSA’s own process for calculating these costs.



19
   SSA Office of Financial Policy and Operations, Conference Planning Guide, p. 8 (November 2009).
The Guide states “. . . a conference may be sponsored for the purpose of exchanging information and
fostering discussion of programmatic, administrative, and/or operational issues, and for generating ideas
to address problems and challenges.”
20
  We performed our own calculations related to salaries and overhead, so our totals may differ from the
Agency’s calculation in CAS. However, the CAS report does not break down costs to conference specific
level.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                 9
Starting in FY 2010, conference oversight and related procurement activity has been
centralized. SSA components must apply for centralized approval before planning or
holding a conference. Additionally, the Agency automated the conference data
submission process in July 2010. While the central oversight policy relates primarily to
conferences and not to all on-going training, we believe these recent steps should
provide (1) increased assurance as to the appropriateness and necessity of future off-
site conferences, (2) stronger control over training expenditures, and (3) improved
compliance with Agency policy and statutory regulations.21 See Appendix E for
additional information on conference oversight.

DDS COSTS

While SSA reimbursed DDSs for approximately $2 billion in services in FY 2009, we
could not identify any training costs because the Agency does not require that State
DDSs provide training cost breakouts as part of its reporting process. Course costs and
related travel are reported to SSA as “miscellaneous” and “DDS travel” without any
further detail on the State Agency Report of Obligations for SSA Disability Programs
(SSA-4513). We also found DDSs did not track all training time, though it is likely that
some DDSs may track the amount of time spent in training for their own purposes. CAS
staff noted the Agency would need to monitor more than 50 different time allocation
systems if the salary and benefit costs were to be broken down into training-related
categories. Finally, we found that while training needs vary greatly among DDSs, OL
provides some training to State employees, including a 16-week basic core curriculum
for new disability examiners. As a result, some of these DDS training costs are already
captured in our SSA cost estimates.

To ensure we captured the majority of costs, we estimated potential DDS training costs
using available information. According to SSA data, total DDS personnel costs for the
nation in FY 2009 were about $1.1 billion. Assuming that DDS staff spent
approximately 6 percent of their time being trained, 22 we estimate that approximately
$64.4 million of about $1.1 billion of total DDS personnel costs related to time DDS staff
spent in training in FY 2009.




21
   We discuss some concerns about conferences held before the Commissioner’s decision to centralize
the conference oversight process in a previous report. SSA OIG, Congressional Response Report: San
Francisco Regional Management Training Forum (A-05-09-29174), December 2009. See Appendix I for
a list of prior OIG reports that relate to training.
22
  Approximately 6.2 to 8.2 percent of SSA employee time at field offices was charged to training-related
activities in FY 2009. We used the lower end of this estimate. Being an estimate, it is possible that the
actual percentage of time charged to training activities is higher or lower than 6 percent.


Training Expenditures at the Social Security Administration (A-05-10-10118)                             10
TRAINING ALLOCATION AND OVERSIGHT
Our review of the budget allocation priorities in Operations demonstrated that
Headquarters specifically allocated funds to the regions for technical training, whereas
the regions schedule more varied training based on available funds and the
organization’s needs. Overall, the Chicago Region 23 spent about 4 percent of its
FY 2009 budget allocation on training for new and existing staff. The Region used a
variety of training approaches to develop its staff and managers, though off-site
conferences were not used in FY 2009 because the Region had sufficient space in its
own facilities to host small events. Finally, we found the Region and Agency lacked a
comprehensive training database that could provide detailed training information for
each regional employee.

BUDGET ALLOCATION PROCESS

We reviewed the budget allocation process in the Chicago Region to understand how
Operations ensured field office personnel were properly trained. As noted earlier, the
majority of the salary and benefit costs was related to the regional offices. As illustrated
in Figure 5, upon receiving its $10.7 billion in FY 2009 appropriations from Congress,
SSA’s Office of Budget allocated funds to each Headquarters component without
providing specific expenditure details beyond rent costs and postage. Operations
received these funds, made its own determinations concerning discretionary versus
non-discretionary funding, and allocated the funds to the relevant field components,
including each of the 10 regional offices.24




23
  We selected the Chicago Region based on its size as the Agency’s second largest region. The
Chicago Region’s budget process should not be regarded as typical of all SSA regions since we did not
perform audit work to determine whether it was representative. We illustrated the decisionmaking
process followed by the San Francisco Region in our December 2009 report, Congressional Response
Report: San Francisco Regional Management Training Forum (A-05-09-29174).
24
   Components under the Office of Operations include the 10 regional offices and associated program
service centers as well as the Offices of Automation Support, Central Operations (for example,
international operations), Disability Determinations (for example, disability determination services),
Electronic Services, Public Service and Operations Support, and Telephone Services (for example,
teleservice centers).


Training Expenditures at the Social Security Administration (A-05-10-10118)                              11
     Figure 5: Illustration of the Budget Allocation Process in the Chicago Region

                                            Headquarters
                      The Office of Budget allocates costs at a high level to
                      Operations, which determines spending priorities and
                               allocates the funds to the regions.




                                          Chicago Region
                     The Region determines the use of discretionary funding
                         and allocates to the area directors accordingly.




                                             Field Offices
                      Each area director addresses field office needs as well
                                  as individual employee needs.

CHICAGO REGION TRAINING COSTS

We reviewed the budget process in the Chicago Region 25 to understand the decision-
making process related to providing employee training in this location. 26 In FY 2009,
approximately $2 million, or about 4 percent of the regional funding, was related to staff
and management training costs.27 According to regional staff, the




25
   The Chicago Region serves Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin with a regional
office, 224 local field offices, 6 State DDSs, 7 teleservice centers, and the Great Lakes Program Service
Center. The Chicago Region employed approximately 6,670 individuals at the end of FY 2009, which
does not include the State employees working at the regional DDSs or the 1,323 additional SSA
employees working in the Region, such as the Offices of Disability Adjudication and Review and Quality
Performance.
26
     As noted earlier, the Chicago Region should not be regarded as typical of all SSA regions.
27
  The salaries and benefits related to regional activities are not part of this cost analysis since these
costs are captured and recorded in Headquarters. The Region provides Headquarters with details on
employee time performing certain duties, including training duties, which are used to allocate the salary
and benefit costs.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                 12
Chicago Region’s FY 2009 budget was $44.1 million, 28 which included 31 non-
discretionary funded items totaling $35.7 million, or 81 percent of the budget.

Operations set aside approximately $740,000 of these non-discretionary funds for
technical training. The Region dedicated another $1.2 million in discretionary funding to
a variety of training activities 29 as well as training-related travel. As a result, a total of
approximately $2 million was available for training and training-related travel for
employees in the Chicago Region. The Region typically holds most of the training funds
and allocates a small portion to area directors, who are generally more familiar with
training needs in their own districts. Figure 6 shows the FY 2009 distribution of
expenditures in the Chicago Region.

                        Figure 6: Chicago Region’s Expenses in FY 2009


                                                                          Guard Services (45%)
                                9%
                    2% 1%                                                 Building Alterations (11%)
                                                                 45%
              6%
                                                                          Medical Consultants (10%)
       8%
                                                                          Supplies (8%)

                                                                          Travel (8%)

       8%                                                                 Change-of-Station (6%)

                                                                          Rentals and Utility Fees (2%)
              10%
                                                                          Other Services (1%)
                                     11%
                                                                          Other (9%)



      Note: Training costs are part of “Travel” and “Other” costs. Expenses presented in the chart do not
      include salaries and benefits.

The amount of funds allocated by regional managers to training is dependent on the
region’s total resources in consideration of all other needs. At the beginning of each
FY, regional staff surveys all major components under the Regional Commissioner’s
jurisdiction to determine funding needs. Regional budget staff compiles all funding
requests in a line-item listing with an activity description to ensure each request
receives the consideration of upper regional management in the allocation process.

28
  This budget amount relates to the regional office, field offices, teleservice centers, and the Great Lakes
Program Service Center. The DDSs are funded separately by the Office of Disability Determinations in
the Office of Operations.
29
     We discuss these training activities in the next section.


Training Expenditures at the Social Security Administration (A-05-10-10118)                               13
Depending on the region’s available resources, training efforts may be fully funded,
reduced in scope and funding, or deferred until additional funds are available. Table 3
demonstrates the decision process used by regional managers when identifying
spending priorities. In terms of discretionary funds, some technical training occurs at
stage two and the rest of the training is part of stage four. 30

     Table 3: Methodology for Determining Regional Needs Using Discretionary
                                     Funds

 Priority
  Stage      Type of Expenditure                             Expenditure Examples
                                         •   Overtime utility fees
                                         •   Employee counseling services
                                         •   Program service center facility contract for electricity,
            Fixed cost and non-
     1                                       cleaning, and engineers
            discretionary needs
                                         •   Telephone directory listing fees
                                         •   General Services Administration vehicle rentals
                                         •   Alarm and security-related repairs
                                         •   Field office area and speech travel
                                         •   Detail travel to backfill management positions
            Critical operational         •   Interpreters for the hearing impaired
     2
            needs                        •   Supplies
                                         •   New hire/crossover technical training, automation
                                             training, and work incentives liaison training
                                         •   Area director visits to field offices
            Critical administrative      •   Area manager meetings
     3
            needs                        •   Regional office staff travel
                                         •   Litigation travel
                                         •    Internal training
                                         •    Developmental program travel
     4      All other needs              •    GETA tuition
                                         •    Building alterations
                                         •    Furniture and equipment purchases

Training Activities

Training is listed as one of the Chicago Region’s priorities in its FY 2009 Operating Plan
under “Invest in Our Workforce.” These priorities include entry-level training for front-
line positions, automation training, and management and leadership training. For
example, the Region runs a Chicago Upward Bound (CUB) program, which is a formal,
competitive developmental program that enhances the career development of

30
   If additional funds become available later in the FY, items not funded or fully funded at levels 3 and
4 are reconsidered for funding. The proposed allocation plan is reviewed by management to obtain
recommendations for revision. In addition, a regional Budget Committee, representing all components, is
convened when necessary to discuss items in level 4 that were not funded. If the Region has unallocated
funds, the Budget Committee can decide to allocate them. The Budget Committee also decides the
priority order for funding other items in level 4, if additional funds become available.


Training Expenditures at the Social Security Administration (A-05-10-10118)                              14
journeyman personnel in the Chicago Region who have demonstrated leadership
potential. CUB participants remain in the program for 1 year, receive a temporary
promotion to the next higher grade level for 1 year, complete two or more
developmental assignments, and receive formal training experience. 31

In terms of entry-level employees, new employees hired to process disability and
retirement workloads are given training to perform their jobs, including face-to-face
classroom work, IVT courses, and on-the-job training with mentors. As we noted in our
November 2009 report, 32 the Agency does not realize the full benefits of hiring these
employees until they have completed their training and gained experience. While the
amount of training provided varies among SSA regions, entry-level courses are
standardized programs for all employees, and the approximate length of the training
required for the most common positions ranges between 3 and 8 months. For example,
the estimated length of training for the service representative 33 position is about
3 months while the claims authorizer 34 position is 6 to 8 months.

Training can be delivered to regional staff in a number of ways, including video
conferences, in-person conferences, IVT, video on demand, SSA Learn, 35 E-Learning,
in-person classroom, and private vendors. 36 While the Chicago Region provided its
employees with a range of training opportunities, the Region did not directly support any
off-site conferences that met our criteria in FY 2009, as described in our May 2010
report, 37 though two other Headquarters components reported conferences held in the
Region. 38 Regional office staff said the Region does not have any off-site conferences
in FY 2010 that would meet our reporting criteria of more than 50 employees.

Regional staff noted that the auditorium and classroom space in the regional building,
as well as the Chicago Training Center near the regional building, provide sufficient
space for management gatherings, and training events. For example, the Chicago

31
     See Appendix B for more information on training goals at SSA.
32
  SSA OIG, The Office of Operations’ Staffing Plans Under the American Recovery and Reinvestment
Act (A-09-09-29157), pages 5 and 6, November 2009.
33
  Service representatives provide information to, and assist, claimants and beneficiaries with various
disability and retirement matters.
34
     Claims and benefit authorizers process claims and post-entitlement actions for current beneficiaries.
35
  SSA Learn provides SSA employees with easy access to an extensive library of online courses,
24 hours a day, 7 days a week, from any computer with an Internet connection and a Web browser. SSA
Learn also enables employees to keep records of completed courses.
36
     See Appendix G for a training matrix that discusses each of these in greater detail.
37
     SSA OIG, Off-site Training Conferences (A-05-10-21035), May 2010.
38
   The Office of Disability Determinations held the DDS Forum meeting in Detroit, Michigan, in May 2009
while the Office of Retirement and Disability Policy held a quarterly meeting for the Occupational
Information Development Advisory Panel in Chicago, Illinois, in June 2009.


Training Expenditures at the Social Security Administration (A-05-10-10118)                                  15
Training Center has four classrooms and two conference rooms. One of the conference
rooms can accommodate up to 60 people theater style and can be subdivided into
2 smaller rooms.

Training Records

To understand the amount of training provided to various types of employees, we
requested copies of training records and reports. While some regional components
maintain limited training documentation, we could not find a comprehensive training
database for regional employees. According to the Agency, it is developing a Learning
Management System that will provide this information upon implementation. SSA’s
Office of Personnel currently maintains an Employee Data Webpage that provides staff
the ability to voluntarily update personal data, including training classes. Staff are
asked to update their own training information after attending a training class that is
4 hours or more in length. 39 Since the Webpage relies on self-reporting and excludes
certain types of reporting, it is possible that some employees do not update records
timely or at all. We spoke to an Area Director in the Region who maintains his own
information files, mostly comprised of employees’ names and dates, to ensure his staff
can account for training.

OL also maintains its own databases on some employee training. 40 While the database
we queried did not provide employee names, it contained statistics on the date a course
was taken, the course title, and the number of attendees from each location. For
example, the IVT Usage Report indicated the Chicago Region had 29,563 attendees at
IVT sessions in FY 2009. This training included Title II Claims Representative Basic
Training, Title XVI Claims Representative Training, Service Representative Basic
Training, Entry-Level Core Lessons, and Site LAN Coordinator Basic Course.

SERVICE DELIVERY
Agency guidelines state, in part, that before approving a training nomination, the
approving official must ensure that the release of the employee to attend training is
compatible with workload demands.41 However, Agency staff stated they were unaware
of more specific written policies at the national or regional levels to (1) ensure service to
the public is not diminished when managers or employees travel or attend training; and
(2) require an optimum staff to management ratio during such absences. When we
surveyed the 10 regional offices, regional staff confirmed that they were unaware of
such guidance.



39
  Some courses offered via Video on Demand and other medium are under 4 hours, so they would not
necessarily be captured in this database.
40
     See Appendix H for Agency statistics on employee training.
41
     SSA, AIMS, TM 02.01.05.B.1.


Training Expenditures at the Social Security Administration (A-05-10-10118)                        16
Agency managers stated that while the regions place a priority on ensuring public
service does not suffer while employees or managers attend training, it is difficult to
apply a formula since minimum staffing requirements vary among districts depending on
such factors as the time of year, local business practices, and availability of staff to
detail to specific assignments. Moreover, these managers emphasized that training is a
critical component in the mission of serving the public, and the regions continually
attempt to maintain a balanced approach between the necessity of training and its affect
on service delivery. The variety of training delivery systems also provided managers
with greater opportunities to adjust the timing and nature of training.

Some of the approaches identified by regional managers to balance training and
workload needs included the following.

•    Regional training staff work with component heads to determine appropriate dates
     and participants. When possible, multiple training days are offered to allow fewer
     attendees to be away from their components.
•    Training is provided in the morning before the opening of the office so customer
     service is not affected. Employees who miss the morning training can take it later in
     the day after the office closes via Video on Demand.
•    Use of the Visitor Intake Process 42 to identify the best days and times for training to
     occur and plan for small training groups throughout the day. This practice ensures
     that a majority of the interviewing staff is available at all times to see the public.
•    One program service center staggers training throughout the day to allow the
     necessary work to be covered.
•    In the rare event the management team is absent in a field office, the district
     manager appoints an officer in charge, generally a technical expert or management
     support specialist, to handle general business operations.
•    Managers adhere to the expectation that a minimum of 50 percent of operations staff
     (not including management) must be present during office operating hours each day.




42
   The Visitor Intake Process is a program designed to help field offices automate and control all stages of
in-office visitors and scheduled appointments.


Training Expenditures at the Social Security Administration (A-05-10-10118)                              17
                                                                    Conclusions
We estimate SSA spent between 3.8 and 4.4 percent of its administrative expenses in
FY 2009 on training and training-related activities. Expenditures related to off-site
conferences are much smaller, representing less than 0.1 percent of the Agency’s
administrative costs. In terms of oversight, while most training activities are left to the
relevant components’ discretion, SSA has established greater controls over the off-site
conference expenditures that should help ensure the scheduled conferences are
appropriate and closely adhere to the Agency’s planning and procurement policies.
Because of the lack of a comprehensive employee training database, we could not
quantify the amount of completed training provided per employee or the volume
associated with all types of training provided. Finally, we found that in the absence of a
formal or written policy, local field office management has established a variety of
internal policies to ensure appropriate coverage of workloads while employees are
being trained. The variety of training delivery systems at the Agency also provides
managers with greater opportunities to adjust the timing and nature of this training.




Training Expenditures at the Social Security Administration (A-05-10-10118)              18
                                             Appendices




Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                              Appendix A

Acronyms
    AIMS                Administrative Instructions Manual System
    ARRA                American Recovery and Reinvestment Act of 2009
    CAS                 Cost Analysis System
    CCEA                Centralized Common Expense Account
    C.F.R.              Code of Federal Regulations
    CPAS                Conference Proposal and Approval System
    CPS                 Conference Planning Support
    CUB                 Chicago Upward Bound
    DDS                 Disability Determination Services
    FY                  Fiscal Year
    GETA                Government Employees Training Act
    ITS                 Information Technology Systems
    IVT                 Interactive Video Teletraining
    ODAR                Office of Disability Adjudication and Review
    OFPO                Office of Financial Policy and Operations
    OHR                 Office of Human Resources
    OIG                 Office of the Inspector General
    OL                  Office of Learning
    Operations          Office of Operations
    PSC                 Program Service Center
    Pub. L. No.         Public Law Number
    SOC                 Sub-Object Classification
    SSA                 Social Security Administration
    SSOARS              Social Security Online Accounting and Reporting System
    TM                  Training Manual




Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                              Appendix B

Training Goals at the Social Security
Administration
The information provided below demonstrates how the overall Agency training goals
translate into programs at the field-office level.

AGENCY-LEVEL TRAINING GOALS
The Social Security Administration’s (SSA) Office of Human Resources published a
Strategic Human Capital Plan covering 2009 to 2011. This document provided the
reader with “…a roadmap on how we will use human capital to meet our mission and
goals…” and highlighted four strategic human capital goals.

1. Recruitment: Capitalizing on recruitment programs that will attract a multi-
   generational, multi-cultural workforce with the competencies needed to achieve our
   mission.
2. Development of Succession Management: Developing leaders at all levels
   through comprehensive succession management, outstanding development
   programs, and an extensive array of learning opportunities.
3. Performance and Communication: Improving employee performance by fostering
   better management-employee communication and rewarding excellence.
4. Organizational Culture and Continual Learning: Providing an environment and
   culture that fosters employee retention, promotes achievement in public service, and
   encourages the pursuit of personal excellence through continual learning.

The second and fourth goals directly address training needs.

COMPONENT-LEVEL TRAINING GOALS
The Office of Operations’ Operating Plan for FY 2009 contains a number of priorities,
including a goal to “Invest in Our Workforce.” This goal has a number of training
initiatives that involve the use of various Agency resources.

1. Continue to enhance entry-level training for front-line positions.
2. Support and improve training using appropriate training technologies.
3. Continue to provide all staff with automation training, including training on Internet
   services for the public, to ensure maximum and efficient use of technology.
4. Ensure management personnel receive timely management and leadership training.




Training Expenditures at the Social Security Administration (A-05-10-10118)           B-1
FIELD-LEVEL TRAINING GOALS
The Chicago Region’s FY 2009 Operating Plan highlights the Office of Operations’
priorities, including “Invest in Our Workforce.” The Region also added initiatives specific
to its needs, including (1) developing and rolling out diversity training for managers,
(2) training all staff on “internet services for the public,” and (3) support for career
development programs, such as the following.

1. Chicago Employee Exchange and Rotation: This is an on-going program, first
   established in 1998, aimed at giving employees of all grades and locations in the
   Region a chance to request a temporary work assignment in another office or
   component outside their chain-of-command. These assignments can be for as few
   as 5 or as many as 30 work days.
2. Special Opportunities to Excel: This is a regional program for grade levels GS-2
   through 8 and WG-2 through 6 employees. This program offers all regional
   employees at these grade levels a chance to compete in a career development
   program that includes a variety of developmental experiences and a temporary
   promotion for 12 months.
3. Chicago Upward Bound: This is a formal, competitive developmental program
   designed to enhance the career development of journeyman personnel in the
   Chicago Region who have demonstrated leadership potential. Participants will
   remain in the program for 1 year, receive a temporary promotion to the next higher-
   grade level for 1 year, complete two or more developmental assignments, and
   receive a formal training experience using regional training funds.
4. Fresh Incentives for Regional Excellence: This is a regional program for GS-13
   and 14 permanent employees designed to develop managerial talent.




Training Expenditures at the Social Security Administration (A-05-10-10118)            B-2
                                                                              Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal regulations and the Social Security Administration’s
    (SSA) policies and procedures, including the Administrative Instructions Manual
    System, pertaining to training activities at Federal agencies.

•   Reviewed prior Office of the Inspector General reports on training and related
    activities.

•   Reviewed data in SSA’s financial systems, including Division of Cost Allocation
    reports and the Social Security Online Accounting and Report System (SSOARS),
    for Fiscal Year 2009 as well as other periods for purposes of comparison.

•   Interviewed staff from the Offices of Disability Determinations and Finance as well as
    the Division of Cost Allocation and obtained information from the Offices of Learning
    and Financial Policy and Operations.

•   Interviewed Chicago Region staff associated with the budget process, decision-
    making, and employee training. We also visited a Chicago area field office to learn
    more about decision-making by local managers and the training available to field
    office staff.

Our review was limited in scope to analyzing training and training-related cost data as
supplied to us by the Agency. As such, we relied on the representations of Agency
personnel indicating the data reported to us were complete and accurate to the best of
their awareness and ability. Accordingly, our work did not constitute an audit of such
information.

We conducted our work from January through August 2010 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.




Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                                       Appendix D

Tuition, Contracts, and Related Travel Costs
We identified approximately $49.7 million in costs related to course tuition, training-
related contracts, and travel associated with training classes and conferences (see
Table D-1). 1 These costs were obtained directly from the Social Security Online
Accounting and Reporting System (SSOARS)2 based on sub-object classifications
(SOC) that appeared to be related to training activities. We identified other SOCs that
may have contained costs related to training, but we were unable to distinguish training
activities from other activities, so we did not include them. Of the $49.7 million in tuition,
contracts and related travel costs, almost $41.3 million has been disbursed, and the
remainder are considered open obligations.

             Table D-1: Training Expenditures Related to Tuitions, Contracts,
                         and Related Travel for Fiscal Year 2009

                  Social Security Online Accounting and Reporting System Data
          SOC                  Sub-Object Classification Description                         Total
          2120          Travel – Informational Meeting                                             $895
          2123          Travel – Conference                                                   $2,509,020
          2141          Travel – Training Attendance – Internal                              $15,934,596
          2142          Travel – Training Attendance – Inter-Agency                             $547,414
          2143          Travel – Training Attendance – Non-Government                           $772,913
          2144          Travel – Technical Recruiting                                         $8,684,598
          2321          Exhibit, Temporary Space and Other                                    $2,201,587
          2525          Government Employees Training Act Training                           $14,963,744
          2526          Training Contracts                                                    $3,482,691
         252G           Entertainment Expenses                                                   632,974
    Total                                                                                    $49,730,432




1
    This does not include the Interactive Video Teletraining and Office of Learning costs.
2
  In October 2003, SSOARS was implemented as the Social Security Administration’s system-of-record
for the Agency's financial accounting function.


Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                              Appendix E

Training Approval Policy
Social Security Administration policy 1 states that before approving a training nomination,
the approving official must ensure that

•   the training is needed;
•   the necessary funds and/or other resources required for the training are available
    and can be committed;
•   the release of the employee to attend training is compatible with workload demands;
•   the training is a more economical means of obtaining the needed knowledge and
    skills than job rotation, special assignment, detail, or other less formal types of
    training;
•   the cost of the training, including loss of productive time and salary, is offset in
    relation to the value of improved performance to the Agency;
•   the employee will have the opportunity to make use of the newly acquired
    knowledge and skills; and
•   all other employees who might need the training have been considered without
    regard to race, color, religion, sex, national origin, age, handicap, or other factors
    unrelated to training.




1
 SSA, Administrative Instructions Manual System, Training Manual, 02.01.05.B.1.—Other Government
and Non-Government Training and Internal Training.


Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                              Appendix F

Central Oversight of Off-Site Conferences
In August 2009, the Commissioner centralized conference oversight and related
procurement activity in the Office of the Deputy Commissioner for Budget, Finance and
Management. In addition, a conference planning support staff was established to

1. provide clear guidance for conference planning and execution, including updating the
   Administrative Instructions Manual System and publishing a conference guide on the
   Social Security Administration’s (SSA) Website;
2. implement a process for reviewing and approving all components’ upcoming
   conference plans at the beginning of each fiscal year (FY); and
3. implement a post-conference process for evaluating conference planning and
   execution.

Essentially, beginning in FY 2010, all SSA components must apply for centralized
approval before planning or holding a conference of any sort, not just training. The
applicant’s proposal will be subjected to review and control by the Office of Financial
Policy and Operations (OFPO) before SSA components are allowed to commit Federal
funds. As part of the oversight process, OFPO Conference Planning Support (CPS)
staff reviews data provided by SSA components using the SSA Conference Proposal
form. 1 The form requires that the requesting entity include conference details, such as
purpose, location, facilities, attendees, and costs, as well as a narrative justification for
the expenditure.

CPS and the Office of Program Accounting Operations Web team developed a Web-
based system called the Conference Proposal and Approval System (CPAS) that was
released in July 2010. CPAS automates the conference proposal process from
beginning to end and tracks post conference reports. CPAS allows users to input
conference plans, electronically route and approve proposals, access the status of
proposals in real time, and prepare post-conference reports. In addition, CPAS will
have the capabilities to generate numerous management information reports for
components to monitor their conference costs and activities, such as

1. number of conferences by component/region, category or facility type (Federal or
   non-Federal);
2. status of conference proposals and post-conference reports by component;




1
  The internal Website SSA established provides managers with the SSA Conference Planning Guide and
reporting forms.


Training Expenditures at the Social Security Administration (A-05-10-10118)                    F-1
3. conferences with cost variances over 10 percent and explanations for those
   variances; and
4. total conference costs for prior and current FYs by component (both budgeted and
   actual costs).




Training Expenditures at the Social Security Administration (A-05-10-10118)           F-2
                                                                                                                 Appendix G

Chicago Region Training Matrix
We developed the training matrix below based on discussions with regional officials in the Chicago Region.

   Table G-1: Training Matrix for Various Methods of Delivering Training at the Social Security Administration
                                                                                                                            Affect on
                                                    Size of     Instructor/                    Training-                     SSA's
   Delivery     Purpose/Delivery                   Audience       Student          Types of     Related    Technology      Computer
   Methods            Method         Audience       (target)    Interaction        Courses      Travel         Used         Network
                                                                       1
 Video          Occasionally used   Management    Varies        Limited       NA              NA           SSA's          Technology
 Conferences    to share                                                                                   network        uses SSA's
                information with                                                                                          network
                Headquarters                                                                                              capacity
                components or for                                                                                         (bandwidth)
                Commissioner-                                                                                             and may
                level conferences                                                                                         slow the
                                                                                                                          system
 Conferences    Predominantly       Management    Varies        Open and      Predominantly   Yes          Contract for   None
                                                                       2
                used for lecture,   and staff                   limited       used for                     technology
                interactive                                                   management                   services
                discussion, and                                               training
                training




Training Expenditures at the Social Security Administration (A-05-10-10118)                                                      G-1
                                                                                                                                 Affect on
                                                      Size of    Instructor/                        Training-                      SSA's
    Delivery    Purpose/Delivery                     Audience      Student          Types of         Related    Technology      Computer
   Methods            Method            Audience      (target)   Interaction        Courses          Travel        Used          Network
                                                                        3                               4
 Interactive    Used for majority      Management   Varies       Limited       Chicago uses         Yes         SSA's        Technology
 Video          of entry-level         and staff                               IVT for 85-90                    Satellite    does not
 Teletraining   training for field                                             percent of field                 Dish         interfere with
 (IVT)          operations and                                                 office entry level                            SSA's network
                ongoing                                                        training;
                transmittal training                                           management
                for staff in the                                               training; and
                immediate claims                                               personal
                taking units in the                                            development
                program service
                center (PSC). IVT
                is available to
                most staff in other
                sections of the
                PSC, teleservice
                center, and
                disability
                determination
                services (DDS)
 Video on       Self-study videos      All Staff    One person   None          Individuals who      No          SSA's        Technology
 Demand         of IVT sessions                                                are unable to                    network      uses SSA's
                                                                               attend required                               network
                                                                               IVT training,                                 capacity
                                                                               refresher                                     (bandwidth);
                                                                               training, and                                 however, the
                                                                               self-                                         number of
                                                                               development                                   expected users
                                                                                                                             at any given
                                                                                                                             time should not
                                                                                                                             slow the system




Training Expenditures at the Social Security Administration (A-05-10-10118)                                                            G-2
                                                                                                                               Affect on
                                                    Size of     Instructor/                       Training-                     SSA's
   Delivery     Purpose/Delivery                   Audience       Student        Types of          Related    Technology      Computer
   Methods          Method           Audience       (target)    Interaction      Courses           Travel        Used          Network
                                                                                                                           Technology
 SSA Learn      Self-study         All Staff      One person    None          Personal            No          Internet     uses SSA's
                                                                              development                                  network
                                                                              and refresher                                capacity
                                                                              training                                     (bandwidth);
                                                                                                                           however, the
                                                                                                                           number of
                                                                                                                           expected users
                                                                                                                           at any given
                                                                                                                           time should not
                                                                                                                           slow the system
 E-Learning     Self-study         All Staff      One person    None to       Personal            No          Internet     Technology
                                                                       5
                                                                limited       development                                  uses SSA's
                                                                              and refresher                                network
                                                                              training                                     capacity
                                                                                                                           (bandwidth);
                                                                                                                           however, the
                                                                                                                           number of
                                                                                                                           expected users
                                                                                                                           at any given
                                                                                                                           time should not
                                                                                                                           slow the system
 Traditional    Lecture            All Staff      Varies        Open          All entry-level     Varies      None         None
 (on-site) –                                                                  training for DDS,
 Face-to-                                                                     PSC, and other
 Face                                                                         component staff;
                                                                              management
                                                                              training; and
                                                                              training needs of
                                                                              an individual or
                                                                              group
 Private        Lecture            All Staff      Varies        Open          Management          Varies      None         None
 Vendors                                                                      training and
 (off-site) –                                                                 training needs of
 Face-to-                                                                     an individual or
 Face                                                                         group



Training Expenditures at the Social Security Administration (A-05-10-10118)                                                          G-3
Note 1: The participants are not inclined to discuss actual management issues/problems because they do not know who is actually in attendance
at the different participating sites and how the discussion will be received.
Note 2: The participants are allowed to discuss different issues with their peers from other offices and participate in activities/simulation training
(for example, real-life scenarios) in small groups. The participants also attend large, group meetings where they may or may not feel comfortable
sharing ideas.
Note 3: The participants are allowed to interact with the instructor through question and answer sessions. The instructor may not be able to
respond or receive all the participants’ questions.
Note 4: SSA has generally clustered students for IVT training. SSA does not want one individual to attend an IVT session only. As a result, SSA
pays for training travel related expenses for staff from different offices to participate in the IVT training sessions.
Note 5: SSA has contracted in the past with private vendors that supplement the E-Learning course with an instructor who could answer potential
questions from course participants.




Training Expenditures at the Social Security Administration (A-05-10-10118)                                                                      G-4
                                                                                   Appendix H

Statistics on Agency Training
Social Security Administration (SSA) delivers training using a variety of programs.
When we spoke to staff in the Office of Human Resources, we found that while the
Agency does not yet have the ability to generate training reports, it is working with a
contractor to implement a pilot of a Learning Management System this fall. In the
meantime, the Office of Learning was able to provide the following training information
for Fiscal Year 2009. 1
1. SSA Learn: There were 1,788 users who completed 4,233 course registrations.
   There are 3,322 users who are completing 9,920 course registrations.
2. On-line Lessons: 2 A total of 110 different lessons were viewed 218,646 times.
3. Video on Demand: A total of 752 distinct lessons were viewed 606,758 times.
4. Interactive Video Teletraining (IVT): A total of 174 individual programs were
   viewed by an estimated 213,553 viewers. Each IVT was rebroadcast approximately
   four times and then made available on Video on Demand.
5. Entry level classes: There were nine 4-month classes for Title II, Title XVI, and
   service representatives that served 3,359 students. In addition, there were 178 live
   classes that served another 2,271 students.

Using the data that the Office of Human Resources provided, we identified the following
10 courses as the most frequently taken by Agency employees.

       •   Service Representative Training (IVT)
       •   E2 Solutions
       •   Effective Business Writing
       •   Title II Claims Representative (IVT)
       •   Transition to Leadership 401
       •   Front Line Conference
       •   SSA Leadership Symposium
       •   Title XVI Claims Representative (IVT)
       •   Transition to Leadership 301 (Nuts and Bolts)
       •   E2 Solutions Document Preparation




1
 We did not verify the training numbers and Agency officials noted that some of the training figures may
be incomplete.
2
    These are SSA developed programmatic lessons that are not available on SSA Learn.


Training Expenditures at the Social Security Administration (A-05-10-10118)
                                                                              Appendix I

Related Office of the Inspector General Reports
We have issued several reports that discuss the Agency’s training efforts.



                                     Report                                    Date Issued
Social Security Administration Off-site Training Conferences
(A-05-10-21035)                                                                 May 2010
The Social Security Administration’s Hiring and Training of Information
Technology Specialists (A-13-09-19082)                                         March 2010
San Francisco Regional Management Training Forum (A-05-09-29174)              December 2009
The Social Security Administration Field Offices’ Training of Staff
(A-13-08-18029)                                                                 July 2008
Association of Administrative Law Judges’ Training Conference Costs
(A-12-08-28037)                                                                 April 2008
The Social Security Administration’s Office of Systems’ Training
Programs (A-13-05-15031)                                                      October 2005




Training Expenditures at the Social Security Administration (A-05-10-10118)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
